June 27, 2013

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Sarah W. Wines
Acting Mission Director for Afghanistan, U.S. Agency for International Development

I am writing to share with you the information obtained as part of the work we did on an agricultural program
funded and overseen by the U.S. Agency for International Development (USAID). We initiated this work based
on a series of hotline and other complaints received since February 2012, alleging instances of fraud, waste,
and mismanagement associated with project activities conducted under the Southern Regional Agricultural
Development (S-RAD) program. Our review found that poor coordination, waste, and mismanagement under S
RAD was allowed to occur because USAID did not exercise effective oversight of the implementing partner.
Although this program has ended, we are alerting you to these findings so that you can take the appropriate
actions to prevent such problems in future agricultural development programs.
On August 27, 2011, USAID awarded a nearly $70 million cooperative agreement to International Relief and
Development, Inc. (IRD) to implement the S-RAD program. According to IRD’s program management plan, the
S-RAD program was intended to (1) reduce regional instability, (2) increase agricultural employment and
income opportunities, (3) assist with the regional transition to a prosperous and sustainable agricultural
economy, and (4) improve the confidence of Afghans in their government. Originally intended to last 1 year, the
cooperative agreement was subsequently extended without an increase in funding through October 15, 2012. 1
Among other things, the S-RAD program involved providing farm and other equipment (e.g. tractors, threshers,
and solar panels), agricultural supplies (seed, fertilizer, and saplings), and agricultural training to Afghan
farmers and agricultural cooperatives 2 in 17 districts in Helmand and Kandahar provinces. S-RAD project
activities were implemented through the Afghan Directorate of Agriculture, Irrigation, and Livestock (DAIL), with
additional program development and planning coordination with provincial reconstruction teams; 3 district
stabilization teams; 4 and U.S. officials from the Department of State, Department of Agriculture, USAID, and
military units. Each of these distribution programs—farm tractors, solar panels, and agricultural supplies (more



1 S-RAD was a “bridge” program between the $474 million Afghanistan Vouchers for Increased Production in Agriculture-

Plus (AVIPA-Plus) program and a follow-on program called Regional Agricultural Development Program South under a long-
term cost-plus fixed-fee contract solicited on January 22, 2013, for a 5-year period.
2 An agricultural cooperative consists of a group of farmers affiliating for the purpose of sharing high-value machinery─such

as farm tractors─to increase agricultural production with a relatively small number of grants distributed under the program.
3 Provincial reconstruction teams are the vehicle by which the international community delivers assistance at the provincial

level in Afghanistan. Due to their provincial focus, and international civilian and military resources, these teams have a
unique mandate to improve security, support good governance, and enhance provincial development.
4 District stabilization teams operate at the district level and are located in more isolated areas than the provincial

reconstruction teams, which tend to be concentrated in provincial capitals. The district teams’ mission is to improve
infrastructure and opportunities in areas where the central government is considered distant from the district level.
commonly referred to as conditional asset transfers)—was designed to generally follow the same beneficiary
selection and distribution process. Under this process, USAID approved the districts in which the program
would be implemented, and DAIL and IRD selected the farmers or agricultural cooperatives and businesses
designated to receive the respective equipment and supplies as appropriate.


IRD’s Coordination and Execution of Certain Project Activities Was Ineffective
IRD did not effectively coordinate and execute the S-RAD project activities we reviewed. For example, the S-
RAD cooperative agreement required IRD to coordinate proposed project activities with provincial
reconstruction teams and district stabilization teams. While IRD indicated that it had coordinated with—and
incorporated input from—key stakeholders to ensure that its work plan was based upon collective priorities and
that expectations for the project were realistic and attainable, we found that IRD did not effectively coordinate
with some key U.S. officials at the Kandahar provincial reconstruction team, local district stabilization teams, or
local U.S. military units who were responsible for program oversight.
In addition, IRD deviated from its work plan by distributing items that were more expensive than those called
for in the plan or items that had not been called for under the plan. U.S. officials—as well as some local Afghan
officials—questioned some of these purchases, such as farm tractors and solar panels, because of the risk of
theft and waste associated with them. These officials also expressed concern about some purchases related to
agricultural supplies because they had been found to be ineffective in precursor programs to the S-RAD. Below
is a more detailed discussion of the problems we identified related to farm tractors, solar panels, agricultural
supplies, and irrigation pumps.

    •    Farm Tractors. Although IRD’s work plan
         called for the purchase of two-wheel             Photo 1 - Four-Wheel Tractor Distributed in Shah-
         tractors costing $4,600 each, IRD                Wali-Kot District
         purchased 95 four-wheel tractors costing
         $17,600 each, for a total cost of
         approximately $1.67 million. 5 Photo 1
         shows a four-wheel tractor distributed to a
         farm cooperative in Shah-Wali-Kot District.
         Local IRD officials told us that they had
         recommended the two-wheel tractors in
         the work plan because of the tractor’s
         success under the AVIPA-Plus program. The
         IRD officials also said that they made the
         decision to purchase four-wheel tractors
         because some Afghan officials did not want
         any more two-wheel tractors distributed to
         farm cooperatives. IRD officials we spoke
         with at IRD headquarters agreed that the
         two-wheel tractors were more appropriate         Source: USAID, January 24, 2013.
         for use in small plots with tight spaces, but
         the four-wheel tractors were better suited for wide open spaces.
         According to USAID, Department of Agriculture, Department of State, and provincial reconstruction
         team officials, the two-wheel tractor option would have been more practical in the orchard areas
         where many of the tractors were going to be used. Had IRD kept the two-wheel tractor option as
         outlined in the work plan, it could have saved approximately $1.2 million or purchased more than
         three times the number of two-wheel tractors for the same amount of money it spent for the four-




5 The cost of $17,600 and $4,600 for the four-wheel and two-wheel tractors, respectively, represented an average cost

because they included various attachments—such as trailers, threshers, tillers, and reapers—that differed among, and
within, each type of tractor.



SIGAR Alert 13-2                                                                                                  Page 2
         wheel tractors. 6 However, on April 30, 2012, the USAID Agreements Officer retroactively approved
         IRD’s purchase of the four-wheel tractors without any documented explanation regarding why the
         decision was made to allow IRD to purchase the more expensive tractors.
         The tractor distribution program encountered other problems. Specifically, according to a study
         requested by the Kandahar Mobile Outreach Support Team’s director on October 6, 2012, at least
         one-third of the 95 tractors—worth in excess of $560,000—that were distributed in Kandahar could
         not be located. This is similar to problems that occurred in S-RAD’s predecessor program—AVIPA-Plus.
         Specifically, according to a State Department official, all of the 69 tractors that IRD distributed under
         the AVIPA-Plus program are now missing.

    •    Solar Panels. Although IRD’s work plan called for the provision of solar power to select DAIL district
         offices, IRD expanded the program and distributed 300 solar panel sets costing $2,300 each to
         shopkeepers in 5 districts in Kandahar. Recipients were required to qualify for the program by owning
         a business selling agricultural products in the district, submitting a fee equal to 10 percent of the cost
         of a solar panel set ($230), and attending training on set operation and maintenance. Photo 2 shows
         a solar panel set distributed to a shopkeeper in Panjwai district.

         IRD officials we spoke with stated
         that one of the principal factors           Photo 2 - Solar Panel Set Distributed in Panjwai District
         considered in their decision to
         expand this program was the need
         to reduce the use of generators
         powered by expensive diesel fuel,
         the price of which is projected to
         increase substantially in the future.
         However, some U.S. officials
         expressed objections to the solar
         panel distribution program to IRD
         officials during the program’s
         planning phase, citing the potential
         for theft, resale, or use of the
         equipment other than for business     Source: USAID, January 16, 2013.
         purposes. They also stated that, as
         most businesses were not equipped for electricity, the solar panels would impose a financial burden
         on business owners, who would need to invest in electrical receptacles and other electrical equipment
         and pay for periodic maintenance and battery replacement.
         Furthermore, according to a senior U.S. representative of the Arghandab district stabilization team, the
         district governor strongly objected to the solar panel distribution program in his district, as he believed
         it unnecessary. Local Afghan officials in at least two other districts (Dand and Panjwai) also objected
         to the solar panel distribution program because they, too, deemed the program unnecessary.
         According to a senior USAID official, the Dand district governor reportedly confiscated solar panels
         from participants he suspected of using the solar panels in their private residences. IRD officials we
         spoke with had no information on any confiscation of solar panels by Afghan officials.

    •    Agricultural Supplies. The distribution program for agricultural supplies—seed and fertilizer packages
         and saplings—was designed to provide Afghan farmers with the resources necessary to build
         immediate financial security and long-term sustainability. IRD’s work plan prescribed the distribution
         of seed and fertilizer packages associated with high-value crops, as well as barley, corn, and legumes.
         We found that IRD implemented the agricultural supplies distribution program in Kandahar—at a cost
         of approximately $7.8 million—even though some U.S. officials expressed concerns to IRD about the



6 Given the average cost, two-wheel tractors for the program would have totaled $437,000; the four-wheel tractors totaled

$1.67 million or about $1.2 million more than the two-wheel tractors. In other words, 363 two-wheel tractors could have
been purchased for the same amount spent on the 95 four-wheel tractors.



SIGAR Alert 13-2                                                                                                   Page 3
         high cost and questionable value of these projects. For example, Department of Agriculture officials
         did not recommend this type of distribution program during the S-RAD’s planning phase on the
         grounds that the amount allocated for agricultural supplies was excessive, and State Department
         officials relayed their concerns to IRD about the potential for corruption and instability associated with
         this type of program. According to an August 2011 district stabilization team report, the Arghandab
         district governor objected to a seed distribution program for S-RAD based on the prior AVIPA-Plus
         program, during which he discovered the distributed seed packages were sold in local markets.
         Adding to these concerns, a USAID official indicated that an IRD employee was observed producing
         fake identification documents, or tazkira, to help villagers pose as farmers to claim seed and fertilizer
         kits. 7 However, IRD officials we spoke with told us that they had no records of an employee by the
         name cited in the allegation. According to a February 2012 Panjwai district stabilization team report,
         local officials found that some recipients of seed distribution packages had used these fake tazkira.
         The report also noted instances of insurgent groups intimidating farmers into giving up their tazkira or
         extorting payment in exchange for being allowed to keep the document authorizing them to receive
         the seed distribution packages.
         The USAID senior development officer and Department of Agriculture advisor also objected to
         instituting a sapling distribution program under the S-RAD, citing in a September 2011 “whitepaper”
         the major problems experienced during the AVIPA-Plus program. For example, the whitepaper noted
         problems with the distribution of more than 300,000 saplings in Arghandab district in 2011, following
         a distribution of 600,000 saplings in 2010, which saturated the local market and resulted in a sapling
         mortality rate of about 75 percent. Some provincial reconstruction and district stabilization team
         officials told us they objected to the sapling distribution because the program was destabilizing their
         area of operations due to perceived irregularities in the distribution process and also because IRD was
         paying more than the actual market price for saplings.
         We found that IRD paid nearly twice the average price for saplings quoted to district stabilization team
         representatives by local nurseries. IRD contended that the overall price paid for the saplings was
         justified because the price included additional cost elements and services not normally provided by
         local nurseries; IRD officials stated that the higher prices were also attributable to the stringent
         standards specified for the saplings being purchased. 8 As these factors made it difficult to analyze
         actual sapling unit prices, we were unable to conclusively determine whether IRD overpaid for the
         saplings purchased under this program.

    •    Irrigation Pump Assemblies. We also reviewed an irrigation pump distribution project initiated under
         the AVIPA-Plus program in Helmand province and later transferred to the S-RAD program. This review
         revealed instances of gross mismanagement.
         USAID approved IRD expenditures of more than $23 million to purchase, store, secure, and distribute
         16,000 irrigation pumps. However, neither USAID nor IRD officials were able to explain how they
         determined that Helmand province needed 16,000 irrigation pumps and acknowledged that they had
         not conducted a capability needs assessment. We also found that IRD did not conduct an
         environmental assessment until after the irrigation pumps had already been purchased. This was
         inconsistent with Title 22, U.S. Code of Federal Regulations, Part 216, which requires that an
         environmental assessment be done during the project’s planning phase. 9
         In August 2010, the Helmand provincial governor wrote to IRD expressing reservations about
         distributing these irrigation pumps in the five 5 districts participating under USAID’s AVIPA-Plus
         program. Specifically, he reported that these districts had sufficient water resources and existing



7 The USAID official who observed this incident referred the complaint to SIGAR. The individual involved with this illegal act

was arrested by Afghan local authorities but subsequently released based on intervention by an influential Afghan official.
8 According to IRD, these standards included minimum cutting age, average height, and select variety types; additional

services included packing, loading, unloading, and transporting the saplings, which were delivered to multiple locations.
9 This requirement is also stipulated in USAID policy prescribed under its Automated Directives System, Chapter 303

pertaining to cooperative agreements. The environmental assessment could have led to guidelines being developed to
minimize and mitigate environmental impacts.



SIGAR Alert 13-2                                                                                                        Page 4
         irrigation canal systems. The governor’s letter also cited the potential impacts of the distribution
         program on the current water allocation system, expressing his concern that issuing these pumps
         could result in water theft from existing canals. He suggested diverting 8,000 irrigation pumps to two
         districts in the northern part of the province and directed DAIL to assist with this initiative.
         As a result of the governor’s concerns, USAID approved IRD’s decision to suspend the program after
         approximately 3,900 (about a quarter) of the irrigation pumps were distributed. The remaining 12,100
         pumps were stored in warehouses or outdoor open areas. 10 Photo 3 shows one of the outdoor storage
         areas used for irrigation pumps.

         A November 2011 modification to the
                                                              Photo 3 - Outdoor Storage Area for Irrigation Pumps
         cooperative agreement transferred the
         project and remaining $4.84 million from
         AVIPA-Plus to the S-RAD program, with the
         intention of salvaging power supply units
         from the remaining 12,100 irrigation
         pumps for distribution. Following the
         program’s suspension in Helmand, IRD
         also spent $1.18 million to store and
         secure the irrigation pumps until the power
         supply units could be disassembled and
         distributed; this resulted in total
         expenditures of $6 million to store,
         disassemble, and distribute these pumps
         under the S-RAD program. USAID program
         officials stated that, as of August 2012, all
         of the power supply units from the                   Source: USAID, December 5, 2011.
         irrigation pumps had been distributed.


USAID Exercised Ineffective Program Oversight
We found that many of the instances of waste and mismanagement detailed above were allowed to occur
because USAID did not exercise effective oversight of IRD’s implementation of approved project activities or
administration of the S-RAD program.
First, in designing the cooperative agreement that it awarded to IRD, USAID did not incorporate sufficient
requirements to ensure that its officials’ preferences for the program would be followed. Specifically, under the
agreement, IRD was given the flexibility to modify project activities so long as the combined cost associated
with the modifications did not exceed 10 percent of the program’s total budget. This allowed IRD to purchase
some of the items not listed in the work plan without specific USAID approval. When we discussed this issue
with IRD officials at their headquarters, they noted that USAID officials in Afghanistan rotate in and out of the
country frequently and are often “misinformed” about individual projects. Therefore, it was appropriate for IRD
to deviate from USAID officials’ instructions.
Second, USAID did not review and approve IRD’s work plan for the S-RAD until December 30, 2011—4 months
after the start of the 1-year program. By then, substantial funds—about $44 million of the nearly $70 million
initially budgeted for the program—had already been obligated and project activities were well underway. 11
According to IRD officials, the significant delay in USAID’s approval of the work plan contributed to any
problems that may have occurred under S-RAD. We also found that one of the USAID officials involved in
facilitating the approval process of the work plan was a former IRD employee who joined USAID in July 2011—
1 month prior to the award of the cooperative agreement. This individual performed these functions despite



10 The complete irrigation pump assembly consists of an impeller system (water pump) driven by a diesel power supply unit

mounted on a two-wheel chassis that can be towed by a vehicle.
11The work plan authorized IRD to immediately initiate limited project activities based on the expectation that USAID would
approve the plan within 2 months of the program’s start date.



SIGAR Alert 13-2                                                                                                    Page 5
signing a recusal letter and receiving guidance from the USAID Senior Regional Legal Advisor precluding
substantial involvement with any programs conducted by his former employer—IRD—for a period of 12 months
after joining USAID. Several U.S. officials we spoke with expressed concerns that this individual, at least in
appearance if not in fact, was instrumental in IRD’s decisions to exclude some of their recommendations from
the work plan developed for the S-RAD program.
Third, USAID’s overall monitoring of IRD’s performance was limited. For example, the cooperative agreement
required IRD to submit a monitoring and evaluation plan, performance monitoring reports, and weekly,
quarterly, semi-annual, annual, and final program performance reports; however, USAID program officials told
us that they waived some of these requirements because of the agreement’s short 1-year period of
performance. USAID’s decision to waive these requirements limited the information it could have used to more
proactively monitor IRD’s implementation of the program and mitigate waste and mismanagement for select
project activities. Although the S-RAD program has ended, SIGAR will continue to monitor development
programs, including agricultural assistance programs, for the types of problems we identified through this
work.


Conclusion
In the absence of effective oversight from USAID, IRD made programmatic decisions that led to both waste and
mismanagement of resources under the S-RAD program. Robust oversight by funding agencies—in this case
USAID, is the first line of defense when U.S. government dollars are on the line. In environments such as
Afghanistan, strong oversight is especially important. However, in the case of the S-RAD program, USAID did
not exercise oversight as effectively as it could and should have. As a result, equipment was purchased that
may be left unused or stolen; inflated prices for agricultural products were potentially paid; and unnecessary
costs for storing, disassembling, and distributing unneeded pumps were incurred.
                                                     ***
Appendix I discusses our scope and methodology in conducting this work. Should you or your staff have any
questions or need additional information, please contact my Assistant Inspector General for Audits and
Inspections, Ms. Elizabeth Field, at 703-545-6006 or elizabeth.a.field9.civ@mail.mil.
                                                           Sincerely,




                                                           John F. Sopko
                                                           Special Inspector General
                                                            for Afghanistan Reconstruction




SIGAR Alert 13-2                                                                                        Page 6
APPENDIX I - SCOPE AND METHODOLOGY

In May 2012, we initiated work on purchases made under the S-RAD program pertaining to allegations we
received on IRD activities conducted in Kandahar province that program participants and implementers
believed were questionable. Specifically, these allegations pertained to the distribution of farm tractors, solar
panels, and agricultural supplies. In addition to the three areas cited in the allegations, we reviewed a project
for the purchase of irrigation pumps for Helmand that was initiated under USAID’s Afghanistan Vouchers for
Increased Production in Agriculture-Plus (AVIPA-Plus) program, but was subsequently transferred to the S-RAD
program for completion of project activities. 12
To assess the basis for acquiring and the process for distributing agricultural equipment and supplies, we
reviewed S-RAD program documents, including the cooperative agreement, performance management plan,
work plan, and related memoranda and emails. We interviewed USAID officials in Kabul, including the director
and senior advisor of the Office of Agriculture, as well as the deputy director of the Office of Acquisition
Assistance and the Agreement Officer’s Technical Representative for the S-RAD cooperative agreement. We
also interviewed IRD officials in Afghanistan, who were responsible for implementing the S-RAD program, and
IRD officials from its headquarters in Arlington, Virginia. In addition, we interviewed U.S. officials in Kandahar,
who were responsible for recommending project activities for the S-RAD program work plan and monitoring the
execution of activities in their areas of operation. We spoke with a USAID senior development officer in
Kandahar; U.S. military personnel based in the province; and USAID, Department of State, and Department of
Agriculture officials assigned to the region, provincial reconstruction team, and district stabilization teams. We
reviewed field reports prepared by these officials during the program period. We also reviewed the irrigation
pump distribution project documentation for the program in Helmand.




12 According to USAID, the AVIPA-Plus program is an expansion of its 2008-2009 emergency voucher program, which

provided 297,000 vulnerable farmers with vouchers entitling them to discounts on, and access to, improved wheat seed
and fertilizer in an effort to lower and stabilize food prices. USAID subsequently expanded the AVIPA-Plus program to
provide counter-insurgency stability programming in Helmand and Kandahar provinces within an agricultural framework.



SIGAR Alert 13-2                                                                                                 Page 7
